Supreme Court, U.S.
FILED

JUN 1 5 2020
No.

OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

UZOMAIGBONWA
PETITIONER
VS.
FACEBOOK, INC., AND MARK ZUCKERBERG,
RESPONDENT.

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

UZOMA IGBONWA
%7710 GILBERT STREET
PHILADELPHIA, PA 19150

8

QUESTION(S) PRESENTED
1. Whether Facebook was should be protected by the immunity provision of
Section 230 of the Communication and Decency Act when they clearly violated
its own terms of service.
2. Whether the Ninth Circuit Court of Appeals Deprived the Petitioner of his Due
Process Right to be heard when they stated that Petitioner did not have facts
supporting his argument of breach of conflict while the facts were clearly stated
in the brief.
3. Whether the Ninth Circuit Court of Appeals’ ruling in this case directly
conflicted with its own ruling on the same argument in a different case that
came before them.

LIST OF PARTIES

[X ] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page.
A list of all parties to the proceeding in the court whose judgment is the
subject of this petition is as follows-

TABLE OF CONTENTS

OPINIONS BELOW.

1

JURISDICTION

-12-

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE

13.
13....

REASONS FOR GRANTING THE WRIT

13....

9

CONCLUSION

20

INDEX TO APPENDICES

APPENDIX A: OPINION OF THE COURT OF APPEALS FOR THE NINTH CIRCUIT
APPENDIX B: OPINION OF THE DISTRICT COURT
APPENDIX C: DENIAL OF THE MOTION FOR REHEARING

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

10

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.
OPINIONS BELOW

[X ] For cases from federal courts'
The opinion of the United States court of appeals appears at Appendix B to the
petition and is
[ ] reported at NOT REPORTED 5 or,
[ ] has been designated for publication but is not yet reported; or, [ ]
is unpublished.
The opinion of the United States district court appears at Appendix _
_____ to the petition and is

A

[X ] reported at___________________________________________ or,
[ ] has been designated for publication but is not yet reported; or, [ ]
is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported
______________________________________ at ; or,
[ ] has been designated for publication but is not yet reported; or, [ ]
is unpublished. —
:
. •—------——
—— —
The opinion of the
court appears
Appendix

to the petition

and is

at
; or,

[ ] reported at
11

[ ] has been designated for publication but is not yet reported; or, [ ]
is unpublished.
1.
JURISDICTION

[ X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case was
November 26, 2020
[ ] No petition for rehearing was timely filed in my case.
[X ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:; March 19,2020. Mandate-entered-on-March 27,2020.
and a copy of the order denying rehearing appears at Appendix C
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including (date) on
(date) in Application No.
----- A

The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(l).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[] A timely petition for rehearing.was.thereafter.denied on the.following-date:
appears at Appendix
--------[ 3 An extension of time to file the petition for a writ of certiorari was granted to and
including (date) on _
(date) in
Application No.----A

12

The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

♦THE FIFTH AMENDMENT OF THE UNITED STATES CONSTITUTION

STATEMENT OF THE CASE
Petitioner filed a civil lawsuit against Facebook, Inc., and its owner, Mark Zuckerberg,
raising claims about their violation of its own terms of service, and for defamation by allowing
people with fake accounts to remain on their platform to defame and hurt Petitioner with
publication of false accusations and information, including accusing Plaintiff of being a money
launderer, a wife beater, and a scammer. Petitioner reported the incident on numerous occasions
to Facebook who ignored him. The civil lawsuit was filed in San Francisco, California, and the
appeal went to the Ninth Circuit Court of appeal which was denied on November 26,2019.
Rehearing was denied on March 19, 2020. Petitioner now files this petition for writ of certiorari.

I.

REASONS FOR GRANTING THE PETITION
Whether Facebook should be protected by the immunity provision of Section 230 of the
Communication and Decency Act when they clearly violated its own terms of service.
Facebook’s terms of service prohibit users from maintaining fake accounts, bullying,

intimidating or harassing others in the community, posting false or misleading information about
others, promoting violence or threatening others, et cetra. If such behavior is exhibited, the
perpetrator’s account, Facebook promises, will be taken down. Facebook also made available a
mechanism whereby report of any such transgression of its terms of service would be reported for
appropriate action to be taken.
On May 28,2020, the President of the United States signed an executive order, captioned
“Executive Order on Preventing Online Censorship.” The Executive order removed the liability that

13

Section 230 of the Communication and Decency Act would ordinarily provide for interactive internet
provide such as Facebook if their action becomes “deceptive, pretextual, or inconsistent with a
provider’s terms of service... .’’(Executive Order, @ Sec. 2 (b)(ii)(A)).
Petitioner reported to Facebook that its platform was being used by people operating a fake
account to bully, intimidate, harass and threaten him. Those people using the fake accounts also
posted numerous false information about this Petitioner, as have been stated in this petition.
Facebook ignored Petitioner’s report and failed to assure that its terms of service were followed
accordingly while allowing the bullying, intimidation, harassment and threats against Petitioner to
continue even to this day, against its terms of service. Facebook continues to allow these individuals
operating a fake account contrary to its terms of service, to post numerous falsehoods against
Petitioner.
This action (or inaction) of Facebook is clearly “inconsistent with a provider’s terms of
service.” As such, this in clear contravention of what the executive order of May 28,2020 served to
prevent. This sort of action or inaction on the part of Facebook is the kind the executive order
deprives of any liability that ordinarily would be pled by Facebook. Although, taking action
consistent with its terms of service would not have made Facebook out to be seen as a publisher or a
speaker of the content in the fake account, but more, Facebook’s failure to act consistent to its terms
of service warrants that it face liability for the damages sustained by this Petitioner who has been
harmed and is still being harmed by the individuals who have, and continues to violate Facebook’s
terms of service.
A writ of certiorari should be granted so that this Court would address this monumental issue
of Facebook’s inaction thafthe executiveorder says is" inconsistent with its terms of service.

14

II.

The Ninth Circuit Court of Appeals Deprived the Petitioner of his Due Process Right to be
heard when they stated that Petitioner did not have facts supporting his argument of breach of
contract while the facts were clearly stated in the brief.

In the Court of Appeals Decision of November 26, 2019, on page two, paragraph two, it
held as follows: “Dismissal of Igbonwa’s breach of contract claim was proper because
Igbonwa failed to allege facts sufficient to show that defendants violated any
provision in the Terms of Service. See Hamilton v. Greenwich Investors, XXVI,
LLC, 126 Cal. Rptr. 3d 174, 183 (Ct. App. 2011) (setting forth required elements to
state a claim for breach of contract).” (Emphasis added). Petitioner in turn showed the Ninth
Circuit Court, by way of supplying the facts alleged in the Amended Complaint to show that
there indeed were sufficient facts alleged to show that Facebook and Mark Zuckerberg did
violate the provisions in the terms of service. The Amended Complaint charged as follows:
Facebook has rules that its users are supposed to go by, called Terms of Service.
2. One of the terms of service that Facebook legislated is called: [4] Registration and Account
Security. It states as follows: Facebook users provide their real names and information, and we
need your help to keep it that way. Here are some commitments you make to us relating to
registration and maintaining the security of your account- “(1) You will not provide any false
personal information on Facebook, or create an account for anyone other than yourself without
permission; (2) You will not create more than one personal account; (3) If we disable your
account, you will not create another one without our permission
3. There is also another important part of the Facebook legislation called: [3] Safety. It states as
follows: We do our best to keep Facebook safe, but we cannot guarantee it. We need your help
to keep Facebook safe, which includes the following commitments by you: “.... (6) You will not
bully, intimidate, or harass any user; (7) You will not post content that: is hate speech,
15

threatening, or pornographic; incite violence; or contains nudity or graphic or gratuitous
violence; (10) You will not use Facebook to do anything unlawful, misleading, or
discriminatory; (12) You will not facilitate or encourage any violations of this Statement or our
policies.” 4. Then there is yet another part of the legislation called: [5] Protecting Other People’s
Rights. It states as follows: (1) You will not post content or take any action on Facebook that
infringes or violates someone else’s rights or otherwise violates the law; (2) We can remove any
content or information you post on Facebook if we believe that it violates this Statement or our
policies.” (See Petitioner’s Opening Brief on appeal in the Ninth Circuit Court., id.)
After stating what terms of service that Petitioner considered pertinent to his situation, he then
proceeded to state how it directly adversely affected him as follows:
These are the pertinent terms of service that Facebook has, and when one signs up with
Facebook, these become part of the overall contract Facebook has with that person, including
requiring users to report violations of any of these terms of service. Then Appellant, after stating
all these terms of service, went into specifics to state how these terms were violated by a few
unidentified users, as follows: “
On or about May of 2016, Facebook users named Emmanuel Chukwu and Don Chuks began to
post falsehoods about Appellant on the wall of a group named “Alor London Great Elite Forum”
which is administered by a man who calls himself Chukwudi Peace. All these names are aliases of
people whose real names are unknown, and these falsehoods range from criminal activities that
never took place to falsehoods about Appellant’s personal life, including plaintiff allegedly engaging
in domestic disputes and violence against Appellant’s own family members, and other false posts inbetween.
Some of the false accusations that these people post are as follows, (a) that Appellant is a
money launderer. Appellant, however, has never been a money launderer; never been charged by
any court, much less convicted of such crimes, (b) that plaintiff is a wife beater; Appellant has
"
never been a wife beater, nor has he ever been charged with such a crime. Now with this false
allegation, everyone looks at Appellant as a wife beater, (c) that Appellant was a scammer, yet there
has never been anyone who has remotely accused Appellant of scamming him or her, nor has any
charges ever been brought against him for scamming. Furthermore, there has never been any
charges about Appellant defrauding his family members of anything, yet these imposters post all
these defaming and libelous things to injure Appellant Finally, Emmanuel Chukwu clearly and
directly threatened to end my life.

16

On several occasions between May of 2016 April of 2018, Appellant tried to identify whom
Emmanuel Chukwu, Don Chuks and Chukwudi Peace are, but has been continuously unable to
unmask any of them.” (See Petitioner’s Opening Brief on appeal in the Ninth Circuit Court, id.)
The above paragraph indicated activities that took place on Facebook, and how each of those
ran afoul of the terms of service of Facebook, and how he was seriously injured by them. Then
on the net paragraph, Petitioner stated how Facebook’s inaction violated its own terms of service
and directly contributed to Petitioner’s injuries, which, by the way, are still ongoing.
“On several occasions between May of 2016 and April of 2018 as well, Appellant used
Facebook mechanism to report these people to Facebook so that these fictitious characters and
their fake accounts and maliciously motivated forum would be addressed by Facebook because
they were clearly violating the rules and regulations legislated by Facebook, but Facebook
clearly ignored Appellant’s reports.” (See Appellant’s Opening Brief. Id.)
After Appellant showed that Facebook violated their terms of service, Appellant went
ahead to show the damages to him, as follows: “In June of 2018, about two years after Appellant
efforts to report to Facebook failed, Appellant went to his bank to renew his business loan
portfolio, and had requested an enhancement on the loan from Twenty Million Naira
(N20,000,000) to a Hundred Million Naira (N100,000,000), something that is usually swiftly
enhanced.
This time, however, Appellant was confronted by the bank official about the issue of him
being a scammer and a money launderer. Though Appellant rightfully denied such allegations,
he was eventually informed that his business loan portfolio would.no longer.be maintained much.
less enhanced.
In August of 2018, about two years after Appellant’s efforts to report to Facebook failed,
and after Appellant had already spent Seven Million Naira ($22,950) (See Appendix C) and
procured a form that he used to enter into the race for Senate in the Federal Republic of Nigeria
17

for the February, 2019 general election,(See Appendix D, list of Senate candidates) he was
forced to step down by his party leaders and core supporters because his two opponents in the
senatorial race had already began to campaign against him based solely on him being a wife
beater, scammer and money launderer.
Aside from the loss of business funding, and political setback and blackball, Appellant is
now clearly afraid for his life and for his family’s life, especially not knowing the real identity of
the one who issued the death threats. Facebook knows but is not telling.” (See Petitioner’s
Opening Brief in the Ninth Circuit Court of Appeals. Id.)
So, not only did Petitioner succinctly lay out his facts which more than put the
Respondents on notice as to what violations they committed, but Petitioner who is Pro se (See
Haines v. Kerner, 404 US 519 - 1972), also met all the elements of breach of contract. See...
“The essential elements of a breach of contract claim are: "(1) the contract, (2) plaintiffs’
performance or excuse for nonperformance, (3) defendant's breach, and (4) the resulting damages
to plaintiff." (Reichert v. General Ins. Co. (1968) 68 Cal.2d 822, 830 (69 Cal.Rptr. 321,442
P.2d 377].)”
The Ninth Circuit Court of Appeals overlooked these facts which were pled in the
amended complaint as well as in Petitioner’s opening brief on Appeal in the Ninth Circuit Court
of Appeals. The contract was the terms of service which advised that one could report any
violations of the terms of service; the plaintiff’s performance was when Petitioner reported the
violations of terms of service-by-unknown-people-using-fake accounts to-hurt others including’
Petitioner. And the damages were when Facebook violated their own terms of service by
refusing to heed Petitioner’s reports, and then the losses of Petitioner in his business and political
future. This clear omission by the Ninth Circuit Court of Appeals warrants that a writ of

18

certiorari be granted so that the Ninth Circuit Court of Appeals would be instructed to correct the
clear error.
I.

Whether the Ninth Circuit Court of Appeals’ ruling in this case directly conflicted with its
own ruling on the same argument in a different case that came before them.
In this Court’s decision of November 26,2019, on page three, it stated as follows: “We do

not consider matters not specifically and distinctly raised and argued in the opening brief, or
arguments and allegations raised for the first time on appeal. See Padgett v. Wright, 587 F.3d
983,985 n.2 (9th Cir. 2009).” The Ninth Circuit Court of Appeals was referring to Petitioner’s
claim about Facebook, Inc.’s failure to warn users that there could be fake account holders that
might portend to hurt other users. In Doe v. Internet Brands, Inc., 824 F.3d 846 (9th Cir.
2016), the Ninth Circuit Court held that
§230 did not bar Doe’s failure-to-wam claim because the claim did not treat Internet Brands as
the “publisher or speaker” of third-party content on the website. Internet Brands, 824 F.3d at
850-51. Instead, Doe sought “to hold Internet Brands liable for failing to warn her about
information it obtained from an outside source about how third parties targeted and lured victims
through Model Mayhem.” Id. at 851. Here as well, Petitioner faults Facebook for their failure to
act on the report of fake accounts that they have full knowledge of. Instead, Facebook continued
to encourage those fake accounts that are used to commit criminal acts such as cyberbullying and
terroristic threats. In Internet Brands, the Ninth Circuit Court of Appeals said that Doe “does
not seek to hold Internet Brands liable as a ‘publisher or speaker’ of content .someone posted on
the Model Mayhem website, or for Internet Brands’ failure to remove content posted on the
website.” Id. The Ninth Circuit court of Appeals reasoned that the duty would not require Model
Mayhem to delete any third-party content or affect content monitoring. Id. The court said a
warning posted on the website or sent by email would suffice. Here as well, Facebook
19

addressing a fake account on its platform is not tantamount to removing contents posted or affect
content monitoring because as per Facebook’s terms of service, there should not be any fake
accounts on its platforms anyway. A real account can have any content it wants, and it shouldn’t
concern Facebook because its neither regarded as a publisher, a speaker nor a content provider.
Petitioner argued that, like in Internet Brands, if Facebook had warned that there are fake
accounts operating on their platforms, and that people should be mindful of that, then people can
or most likely will take the contents of the fake accounts with a lot of grain of salt. If that
happened, Petitioner’s reputation would have stood a chance, that at least, the contents were
coming from a fake account, and there has to be a reason someone would publish things on a
fake account, because they could not stand behind the truth of those contents.
This claim came before the Ninth Circuit to hear and decide, and it again avoided deciding
it. Assuming that the claim actually was not properly raised, which it was, the Ninth Circuit has
recently ruled on a claim that was not properly raised in the opening brief. The Ninth Circuit
decision not to rule on this credible claim went contrary to its own precedent. See Varney v.
Secretary of Health and Human Services, 859 F. 2d 1396 (9th Circuit 1988). In Varney, the
Ninth Circuit Court held that “As a general rule, we will not consider issues that a party raises
for the first time in a petition for rehearing. Escobar Ruiz v. Immigration and Naturalization
Service, 813 F.2d 283, 285-86 (9th Cir.1987). We recognize an exception, however, for cases
involving extraordinary circumstances. Id. at 286. In Escobar Ruiz, for example, we granted
rehearing in order to allow the govemment-to make an-argument it had-not-initially raised;-We
noted that our initial decision was the first to consider the question whether the Equal Access to
Justice Act applies to immigration proceedings, and that numerous claims would be made in
reliance on that decision. We said that allowing an incorrect statutory interpretation to stand as

20

controlling precedent "would constitute a disservice to all parties concerned." Id. We also
observed that the government's failure to raise the issue initially was due to inadvertence or
negligence, not willfulness. Id.” (Emphasis added.)
This case shows that the Ninth Circuit Court hears claims that “had not [been] initially
raised.” Therefore, saying otherwise puts its decision in contradiction to an existing precedent in
the Ninth Circuit Court of Appeals. Furthermore, this claim was raised in the amended
complaint and in the opening brief. As such, the Ninth Circuit Court of Appeals should have
ruled on it and granted relief.
Wherefore, Petitioner respectfully requests this Court to grant a writ of certiorari and return the
case to the Ninth Circuit to conform with its own precedent.

21

CONCLUSION
The petition for a writ of certiorari should be granted.

Respectfully submitted,
Uzoma Igbonwa
Date^ June 15,2020

PROOF OF SERVICE
I, Uzoma Igbonwa, do swear or declare that on this date,
June 15, 2020 as required by Supreme Court Rule 291 have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PA UPERISand PETITION FOR A WRIT OF CERTIORARI on each party to the
above proceeding or that party’s counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third-party commercial carrier for delivery within 3
calendar days.
The names and addresses of those served are as follows:
DIVYA MUSINIPALLY -#316114
dmusinipally@keker.com
633 Battery Street San Francisco, CA 94111-1809
Telephone: 415 391 5400 Facsimile: 415 397 7188
Attorneys for Respondents, FACEBOOK, INC.
I declare under penalty of peijury that the foregoing is true and correct.
Executed on, June 15,2020

By: Uzoma Igbonwa

22

